h

€~

>
Supreme Court, U.S.
FILED

No.

>-17^

APR 2 7 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

CARLINE CURRY — PRO SE PETITIONER
V.S
UNITED STATES PRESIDENT AND VICE PRESIDENT, US DEPARTMENT OF JUSTICE,
SOLICITOR GENERAL OF THE UNITED STATES; UNITED STATES SENATE, SPEAKER
OF THE HOUSE PELOSI; US HOUSE OF REPRESENTATIVE, US ATTORNEY, CITY OF
MANSFIELD, OHIO, OHIO ATTORNEY GENERAL, REPRESENTATIVE ROMANCHUK,
SENATOR,BROWN — RESPONDENT^)
ON PETITION FOR A WRIT OF CERTIORARI

SIXTH DISTRICT COURT OF APPEALS (20-3686)
(NAME OF COURT THAT LAST RULED ON MERITS OF CASE)
PETITION FOR A WRIT OF CERTIORARI
Carline Curry (Pro Se)
606 Bowman Street
Mansfield. Ohio 44903
567-274-9130

i

I

1

QUESTION PRESENTED

In case No. 18 - 5567 & 2018-0212 Writ and Rehearing in the lower and Supreme Court
of Ohio: When the City failed to Plead Should Plaintiff Curry been awarded Default
Judgement According to law under Ohio Rule of Civil Procedure Rule 4 Process
Summons paragraph B and Default Judgement Undo- Ohio Civil Rule 55 Default
Judgement?

In Case No. 18 -5568 the City Submitted a bad faith affidavit Should plaintiff Curry had
been Awarded Summary Judgement by the Clerk under Ohio Rules of Civil Procedure
Rule 56 (g) Affidavits made in Bad Faith.?

In Case No 1:19 CV 2984 when the court denied plaintiff Curry’s Informa Pauperis Status
and she became aware of the denial and paid die fee. Should the United States District
Court for the Northern District of Ohio have served her complaint on the defendants to try
to get the decision overturned due to a government employee not performing their job
(mandamus) and awarding Plaintiff curry Default Judgement in Case No. 18-5557 and
Summary Judgement in Case No. 18-5568 for the City submitting a Bad Faith Affidavit
and Preponderance of Evidence.?

r

r

\

v»

X
%

2

LIST OF PARTIES
[] All parties appear in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list
of all the parties to the proceeding in the court whose judgement is the subject of
this petition is as follows:
Elizabeth Preglor, Solicitor General of the United States, Room 5616, Department of
Justice, 950 Pennsylvania Ave., N.W., Washington, DC 20530*0001
Attorney General Dave Yost, 30 E. Broad Street; 14 th floor; Columbus, Ohio 43215
28 U.S.C. 451 may apply. No Certification has been granted on the fact that a
Constitutionality of an Act of Congress has been questioned.
Other Parties The United States President and Vice President; Solicitor General of the
United States; The United States Senate; Sherrod Brown; Speaker of the House Nancy
Pelosi, State House of Representative U.S. Capital Building, State Representative
Romanchuk, Ohio Attorney General, City of Mansfield, Justin Herdman U.S. Attorney;
William Barr/ Merrick Garland, Attorney General U.S. Department of Justice.

>
;
/
fi
3

TABLE OF CONTENTS

QUESTION PRESENTED AND LIST OF PARTIES------------

.—„—page 1-2

Page 3

TABLE OF CONTENTS

■Pages 5-15

TABLE OF AUTHORITIES CITED AND STATUES

Pages 16-18

OPINIONS BELOW AND JURISDICTION

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED

Page 18 -19

19-26

STATEMENT OF THE CASE

REASON FOR GRANTING THE WRIT

Page 26- 28

Page 28 - 32

CONCLUSION

INDEX TO APPENDICES

ATHRUF

l

\
\
%

4

TABLE OF AUTHORITIES CITED
CASES
Anderson V. Liberty Lobby Inc. 477 U.S. 242,250 (1986)
Boretti V. Wiscomb, 930 F .2d 1150,1156 (6th cir. 1991)
Celotex Corp V. Catrett 477 U.S. 242,250 (1986)
Haines v. Kemer, 404 U.S. 519,520 (1972)
Jones vs. City of Boston 752 F. ed 38 (2014)
McDonnel Douglas Corp vs. Green 411 U.S. 792,93 S. Ct 1817
New York Time Co v. Sullivan
Vance V. Ball State University
STATUTES AND RULES
28 U.S.C 2403(a) may apply

O.R.C Chapter 4112
42 U.S.C. 1981 & 42 U.S.C. 1981(a)
42 U.S.C. 1983
42 U.SC. 2000(e)
42 U.SC. 2000e-2 & 3
18 USC 79
18 U.S.C. 1621,1622 & 1623
42 USC 1988(b)

/

f
5

O. R.C. 2307.382
28 USC 1254
28 U.S.C. 1331 and 1343
5 USC 706 & O.R.C. Rule 12 and O.R.C. Rule 4
28 USC 1361
28 USC 1331 and 1343
Ohio Rule of Civil Procedures Rules 60 b
28 USC 1257
OHIO RULES OF CIVIL PROCEDURES
RULES OF PRACTICE OF THE SUPREME COURT OF OHIO
7.08(B) (4) JURISDICTION
(B) Decision on jurisdiction upon review of the jurisdictional memorandum, the Supreme
Court will do one of the following:
(1) Accept the appeal and order that the case be briefed in accordance with the applicable
provisions of S.CtPrac.R. 16.01 through 16.08;
(2) Accept the appeal and hold the decision in the appeal for another case that is pending
before the Supreme Court;
(3) Accept the appeal and enter judgment summarily; 2013 v 2017 Rules of Practice
Rules of Practice 47 RULES 7.08-7.09
(4) Decline to accept the appeal. In declining to accept an appeal the Supreme Court
has determined that one or more of the following are applicable after review of the
jurisdictional memorandum: (a) The appeal does not involve a substantial

!
/

P

I
\
\

A

6

constitutional question and should be dismissed; (b) The appeal does not involve a
question of great general or public interest; (c) The appeal does not involve a felony;
(d) The appeal does involve a felony, but leave to appeal is not warranted.
The Ohio Constitution [The 1851 Constitution with Amendments to 2015]
IV.02 Organization and jurisdiction of Supreme Court
(A) The Supreme Court shall, until otherwise provided by law, consist of seven
Judges, who shall be known as the chiefjustice and justices. In case of the absence
or disability of the chiefjustice, the judge having the period of longest total service
upon the court shall be the acting chiefjustice. If any member of the court shall be
unable, by reason of illness, disability or disqualification, to hear, consider and
decide a cause or causes, the chiefjustice or the acting chiefjustice may direct any
judge of any court of appeals to sit with the judges of the Supreme Court in the
place and stead of the absent judge. A majority of the Supreme Court shall be
necessary to constitute a quorum or to render a judgment.
(B)(1) The Supreme Court shall have original jurisdiction in the following:
(a) Quo warranto;
(b)Mandamus;
(c) Habeas corpus;
(d) Prohibition;
(e) Procedendo;

r
i

(f) In any cause on review as may be necessary to its complete determination;
g) Admission to the practice of law, the discipline of persons so admitted, and all other
matters relating to the practice of law.

2) The Supreme Court shall have appellate jurisdiction as follows:
(a) In appeals from the courts of appeals as a matter of right in the following:
(i) Cases originating in the courts of appeals;
(ii) Cases in which the death penalty has been affirmed;
(iii) Cases involving questions arising under the constitution of the United States or of
this state.
(b) In appeals from the courts of appeals in cases of felony on leave first obtained,
(c) In direct appeals from the courts of common pleas or other courts of record inferior to
the court of appeals as a matter of right in cases in which the death penalty has been
imposed;
(d) Such revisory jurisdiction of the proceedings of administrative officers or
agencies as may be conferred by law;
(e) In cases of public or great general interest, the Supreme Court may direct any
court of appeals to certify its record to the Supreme Court, and may review and
affirm, modify, or reverse the judgment of the court of appeals;

j

r

1'

K

t

H

8

(f) The Supreme Court shall review and affirm, modify, or reverse the judgment in any
case certified by any court of appeals pursuant to section 3(B)(4) of this article. ((3(b) (4)
missing.)
(3) No law shall be passed or rule made whereby any person shall be prevented from
invoking the original jurisdiction of the Supreme Court.
(C) The decisions in all cases in the Supreme Court shall be reported, together with
the reasons therefor.
(Amended November 8, 1994)
BILL OF RIGHTS AMENDMENT 16 & 5
Redress for injury; Due process. §16 all courts shall be open, and every person, for an
injury done him in his land, goods, person, or reputation, shall have remedy by due course
of law, and shall have justice administered without denial or delay. Suits
may be brought against the state, in such courts and in such manner, as may be provided by
law. (1912)
Trial by jury. §5
The right of trial by jury shall be inviolate, except that, in civil cases, laws may be passed
to authorize the rendering of a verdict by the concurrence of not less than three-fourths of
the jury. (1912)
The constitutionality of a statue of a state was drawn into questioning under Supreme
Court Rule number 29. (Jurisdiction of the court, right to redress, default
Judgement/Summary Judgement & jury by trial) 28 U.S.C. 2403(a) may apply and the

t
9

complaint is being served on The Solicitor General of the United States, Room 5616,
Department of Justice, 950 Pennsylvania Ave., N. W. Washington, DC 20530-0001 and
Mr. Dave Yost, The Attorney General of Ohio, 150 East Gay Street, Columbus, Ohio
43215.
Rule 56 Summary Judgement
RULE 56. Summary Judgment (A) for party seeking affirmative relief. A party
seeking to recover upon a claim, counterclaim, or cross-claim or to obtain a
declaratory judgment may move with or without supporting affidavits for a summary
judgment in the party’s favor as to all or any part of the claim,
Counterclaim, cross-claim, or declaratory judgment action. A party may move for
summary judgment at any time after the expiration of the time permitted under these rules
for a responsive motion or pleading by the adverse party, or after service of a motion for
summary judgment by the adverse party. If the action has been set for pretrial or trial, a
motion for summary judgment may be made only with leave of court. (B) For defending
party. A party against whom a claim, counterclaim, or cross claim is asserted or a
declaratory judgment is sought may, at any time, move with or without supporting
affidavits for a summary judgment in the party’s favor as to all or any part of the claim,
counterclaim, cross-claim, or declaratory judgment action. If the action has been set for
pretrial or trial, a motion for summary judgment may be made only with leave of court. (C)
Motion and proceedings. The motion shall be served in accordance with Civ.R. 5. Unless
otherwise provided by local rule or by order of the court, the adverse party may serve
responsive arguments and opposing affidavits within twenty-eight days after service of the

y

\

t
10

motion, and the movant may serve reply arguments within fourteen days after service of
the adverse party’s response. Summary judgment shall be rendered forthwith if the
pleadings, depositions, answers to interrogatories, written admissions, affidavits,
transcripts of evidence, and written stipulations of fact, if any, timely filed in the
action, show that there is no genuine issue as to any material fact and that the moving
party is entitled to judgment as a matter of law. No evidence or stipulation may be
considered except as stated in this rule. A summary judgment shall not be rendered unless
it appears from the evidence or stipulation, and only from the evidence or stipulation, that
reasonable minds can come to but one conclusion and that conclusion is adverse to the
party against whom the motion for summary judgment is made, that party being entitled to
have the evidence or stipulation construed most strongly in the party’s favor. A summary
judgment, interlocutory in character, may be rendered on the issue of liability alone
although there is a genuine issue as to the amount of damages. (D) Case not fully
adjudicated upon motion. If on motion under this rule summary judgment is not
rendered upon the whole case or for all the relief asked and a trial is necessary, the
court in deciding the motion, shall examine the evidence or stipulation properly
before it, and shall if practicable, ascertain what material facts exist without
controversy and what material facts are actually and in good faith controverted.
The court shall thereupon make an order on its journal specifying the facts that are without
controversy, including the extent to which the amount of damages or other relief is not in
controversy, and directing such further proceedings in the action as

/

11

are just. Upon the trial of the action the facts so specified shall be deemed established, and
the trial shall be conducted accordingly. (E) Form of affidavits; further testimony; defense
required. Supporting and opposing affidavits shall be made on personal knowledge, shall
set forth such facts as would be admissible in evidence, and shall show affirmatively that
the affiant is competent to testify to the matters stated in the affidavit. Sworn or certified
copies of all papers or parts of papers referred to in an affidavit shall be attached to or
served with the affidavit, court may permit affidavits to be supplemented or opposed by
depositions or by further affidavits. When a motion for summary judgment is made and
supported as provided in this rule, an adverse party may not rest upon the mere allegations
or denials of the party’s pleadings, but the party’s response, by affidavit or as otherwise
provided in this rule, must set forth specific facts showing that there is a genuine issue for
trial. If the party does not so respond, summary judgment, if appropriate, shall be
entered against the party. (F) When affidavits unavailable. Should it appear from the
affidavits of a party opposing the motion for summary judgment that the party cannot for
sufficient reasons stated present by affidavit facts essential to justify the party s opposition,
the court may refuse the application
for judgment or may order a continuance to permit affidavits to be obtained or discovery to
be had or may make such other order as is just.
(G) Affidavits made in bad faith. Should it appear to the satisfaction of the court at
any time that any of the affidavits presented pursuant to this rule are presented in
bad faith or solely for the purpose of delay, the court shall forthwith order the party
employing them to pay to the other party the amount of the reasonable expenses

r

\

-1
12

which the filing of the affidavits caused the other party to incur, including reasonable
attorney's fees, and any offending party, or attorney may be adjudged guilty of
contempt.
Default Judgement
Rule 55 Default (A) Entry of judgment. When a party against whom a judgment for
affirmative relief is sought has failed to plead or otherwise defend as provided by these
rules, the party entitled to a judgment by default shall apply in writing or orally to the court
§ 1621. Perjury generally
Whoever— (1) having taken an oath before a competent tribunal, officer, or person, in any
case in which a law of the United States authorizes an oath to be administered, that he will
testify, declare, depose, or certify truly, or that any written testimony, declaration,
deposition, or certificate by him subscribed, is true, willfully and contrary to such oath
states or subscribes any material matter which he does not believe to be true; or (2) in any
declaration, certificate, verification, or statement under penalty of perjury as permitted
under section 1746 of title 28, United States Code, willfully subscribes as true any material
matter which he does not believe to be true; is guilty of perjury and shall, except as other
(18 U.S.C. Part 1 CHAPTER 79 1621)
§ 1622. Subornation of perjury Whoever procures another to commit any perjury is
guilty of subornation of perjury, and shall be fined under this title or imprisoned not more
than five years, or both
§ 1623. False declarations before grand jury or court (a) Whoever under oath (or in any
declaration, certificate, verification, or statement under penalty of perjury as permitted

/
f

13

under section 1746 of title 28, United States Code) in any proceeding before or ancillary to
any court or grand jury of the United States knowingly makes any false material
declaration or makes or uses any other information, including any book, paper, document,
record, recording, or other material, knowing the same to contain any false material
declaration, shall be fined under this title or imprisoned not more than five years, or both,
(b) This section is applicable whether the conduct occurred within or without the United
States.
RULE 58. Entry of Judgment (A) Preparation; entry; effect; approval. (1) Subject to the
provisions of Rule 54(B), upon a general verdict of a jury, upon a decision announced, or
upon the determination of a periodic payment plan, the court shall promptly cause the
judgment to be prepared and, the court having signed it, the clerk shall thereupon enter it
upon the journal. A judgment is effective only when entered by the clerk upon the journal.
(2) Approval of a judgment entry by counsel or a party indicates that the entry correctly
sets forth the verdict, decision, or determination of the court and does not waive any
objection or assignment of error for appeal.
§1981. Equal rights under the law
(a) Statement of equal rights
All persons within the jurisdiction of the United States shall have the same right in every
State and Territory to make and enforce contracts, to sue, be parties, give evidence, and to
the full and equal benefit of all laws and proceedings for the security of persons and

;

r

\

t
L\

14

property as is enjoyed by white citizens, and shall be subject to like punishment, pains,
penalties, taxes, licenses, and exactions of every kind, and to no other.
(b) "Make and enforce contracts" defined
For purposes of this section, the term "make and enforce contracts" includes the making,
performance, modification, and termination of contracts, and the enjoyment of all benefits,
privileges, terms, and conditions of the contractual relationship.
(c) Protection against impairment
The rights protected by this section are protected against impairment by
nongovernmental discrimination and impairment under color of State law.
1. 42U.S.C. 1981 a
A) Right of recovery
(1) Civil rights
In an action brought by a complaining party under section 706 or 717 of the Civil Rights
Act of 1964 [ 42 U.S.C.A. §°2000e-5 or 2000e-16 ] against a respondent who engaged in
unlawful intentional discrimination (not an employment practice that is unlawful because
of its disparate impact) prohibited under section 703, 704, or 717 of the Act [ 42 U.S.C.A.
§§°2000e-2,2000e-3 , or 2000e-16 ], and provided that the complaining party cannot
recover under section 1981 of this title, the complaining party may recover compensatory
and punitive damages as allowed in subsection (b) of this section, in addition to any relief
authorized by section 706(g) of the Civil Rights Act of 1964, from the respondent

)

1
15

42 U.S.C. § 1983 - U.S. Code - Unannotated Tide 42. The Public Health and Wetfere § 1983. Civil action
for deprivation ofrights

Every person who, under color of any statute, ordinance, regulation, custom, or usage, of
any State or Territory or the District of Columbia, subjects, or causes to be subjected, any
citizen of the United States or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought against a judicial officer for an act
or omission taken in such officer's judicial capacity, injunctive relief shall not be granted
unless a declaratory decree was violated or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the District of Columbia.
§2000e-2. Unlawful employment practices
(a) Employer practices
It shall be an unlawful employment practice for an employer(1) to fail or refuse to hire or to discharge any individual, or otherwise to discriminate
against any individual with respect to his compensation, terms, conditions, or privileges
of employment, because of such individual's race, color, religion, sex, or national origin;
or
(2) to limit, segregate, or classify his employees or applicants for employment in any
way which would deprive or tend to deprive any individual of employment opportunities

/

\

t;
16

or otherwise adversely affect his status as an employee, because of such individual's race,
color, religion, sex, or national origin.
§2000e-3. Other unlawful employment practices
(a) Discrimination for making charges, testifying, assisting, or participating in
enforcement proceedings
It shall be an unlawful employment practice for an employer to discriminate against any
of his employees or applicants for employment, for an employment agency, or joint labormanagement committee controlling apprenticeship or other training or retraining, including
on-the-job training programs, to discriminate against any individual, or for a labor
organization to discriminate against any member thereof or applicant for membership,
because he has opposed any practice made an unlawful employment practice by this
subchapter, or because he has made a charge, testified, assisted, or participated in any
manner in an investigation, proceeding, or hearing under this sub chapter.
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of Certiorari issue to review the judgement below.
OPINIONS BELOW
This case was not heard in courts or the United States district court
[X] For cases from state courts;
The opinion of the highest state court to review the merits appears at

!

1
V

j

17

I
Appendix___ A

to the petition and is

[ ] reported at___________ _____ ,______________________ . ; or,
[ ] has been designated for publication but is not yet reported; or
[X] is unpublished.
The court denied to hear my case on May 23,2018, and I filed for a motion for Reversal
of Conflict Certification. Constitutional Challenge of Default and Summary
Judgement
JURISDICTION
[ X ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was on January 28,
2021
[ ] No petition for rehearing was timely filed in my case.
[

] A timely petition for rehearing was denied by the United States court of Appeals on

the following date:

, and a copy of the order

January 28,2021

denying rehearing appears at Appendix

A_______.

[ X ] An extension of time to file the petition for a writ of Certiorari was granted to and
including _150 days on 3-29-2021____(date) on

(date) in

Application No. _____________
The jurisdiction of this Court is invoked under 28 USC 1254 (1)
[X] for cases from state courts
[X ] The date on which the highest state court decided my case was May 23,2018
Ohio Supreme Court: A copy of that decision appears at Appendix___F______.

18

[ X ] A timely petition for rehearing was denied by the Court of Appeals on the following
date;

and a copy of the order denying

12-28-2018 & 1-2-2019

rehearing appears at Appendix

. The United States Supreme Court.

F

[ ] An extension of time to file the petition for a writ of Certiorari was granted to and
(date) on

including

(date) in

Application No.
[X] The jurisdiction of this Court is invoked under 28 U.S.C. 1257(a).
The Ohio Supreme Court declined to accept Jurisdiction in 2018-2011 and 2018 -2012, I
sent the Case to Supreme Court and Clerk did not apply fees to my case and closed them..
(Decision I'm trying to get overturned).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED STATUTES
AND RULES

1.05 Trial by jury (1851, amended 1912)
The right of trial by jury shall be inviolate, except that, in civil cases, laws may be passed
to authorize the rendering of a verdict by the concurrence of not less than three-fourths of
the jury. “Ohio Constitution Bill of Rights”
(As amended September 3,1912.)
1.16 Redress in courts (1851, amended 1912)

19

All courts shall be open, and every person, for an injury done him in his land, goods,
person, or reputation, shall have remedy by due course of law, and shall have justice
administered without denial or delay. [Suits against the state.] Suits may be brought against
the state, in such courts and in such manner, as may be provided by law. “Ohio
Constitution bill of Rights”
(As amended September 3,1912.)
Title IV of the Civil Rights Act
Organizations and Jurisdiction of the Supreme Court section IV of the Ohio Constitution.
STATEMENT OF THE CASE
Appellant Curry filed a complaint against the City of Mansfield for Discrimination and
Retaliation. The City answered the response to the Civil Rights Commission under peijury.
They failed to plead in case no 18-2011 (2017 CV 300 Richland County) and in 18-0212
(2017 CV 0426 Richland County) they answered the complaint in defenses in case no.
18-0212 for case no 2018-0212 which was Perjury and a Bad Faith Affidavit .The Judge
put the case on a schedule order and the schedule said; NOTICE YOU STILL MUST
ANSWER THE COMPLAINT, WITHIN 28 DAYS AFTER IT WAS SERVED ON
YOU, TO AVOID DEFAULT JUDGEMENT AGAINST YOU. This was on the case
schedule because the City did not answer the complaint in the case number 18-0211.
Since the City answered the complaint falsely I motioned the court for Summary
Judgement: the Judge denied and overruled the motion. There was 30 pages of questions
with ninety seven questions and the City answered in seven defenses. On August 22,2017

20

the Judge dismissed my case SUA SPONTE DISMISSING ON THE MERITS AND
WITH PREJUDICE for failure to amend the complaint to comply with Federal Rules of
Civil Procedure. Plaintiff Curry made amendments to comply with the Rules of the Court
to the best of her ability without an Attorney because the Judge would not grant a leave
until December 20,2017 to find an attorney. The Judge said I had enough time to find an
attorney, I told him when you are working, depending on the type of job you have it takes
a lot of time to find an attorney, who will accept your case. On August 29, and 31, of 2017,
I objected to the Judge closing the case and motioned to continue with the Scheduled court
date of 9-12-2017, and to combine the cases. The motion to consolidate the case was not
taken very well and was overruled.
On September 21, 2017,1 appealed to the Fifth Appellate Court of Appeals they
dismissed the case on January 5, 2018, due to my brief being filed late. The brief was filed
late due to an oversight; I was expecting the court to send me a schedule as they had for 17
CA 80: when they put it on the schedule. I called the Fifth Appellate Court and the
Common Pleas Court because I had not received anything from them, or heard from them,
and when I inquired, I found out my brief was late. I called the Columbus Bar Association
and they recommended some attorneys because I was having trouble finding one who
would accept my case. Attorney Gary Reeves told me he would accept the case and
complete my briefs for me, I gave him a Twenty Five Hundred Dollar retainer, and he told
N.

me he would motion the court for an extension of time to file the brief and he submitted it
on November 27,2017. The Judge entered an entry on January 5, 2018, indicating they
had not received the brief and the case was dismissed for want of prosecution Pursuant to

;

21

APP. R. 18 ©. I called the Richland County Common Pleas Clerk and asked her to email
or fax the brief to the Judge again because they said they did not get the brief. I then called
Attorney Reeves to tell him they closed the case because he had not called me. Upon
calling him3 he said he had not received any information on the case. He called the courts
and they sent the information to the wrong address.
Plaintiff Curry appealed to the United States Supreme Court they denied my Informa
Pauperis Status and told me I had until October 30, 2018 to pay the fee. I sent the fee to
the court on October 26,2018 it was received by J. Cross. He sent the checks back to me
and said my case was closed.
I had 30 days to resubmit a rehearing. I submitted the rehearing and paid the fee it
was submitted on time and they also sent it back to me and said my case was closed.
Plaintiff Curry is appealing to the United States Supreme Court to accept Jurisdiction
and reserve the decision of the lower court and award Plaintiff Curry Summary and Default
Judgement in Case No. 18-0212 and 18-0211 or serve the complaint 1:19 CV 2984 to
defendants and have them overturn the decision (Injunctive Decree: Motion for Senate and
Congress to Review Case and overturn Decision (Act of Congress). Default Judgement
should be awarded because the City did not answer ninety six questions in the complaint
(they failed to plead). Summary Judgement should be awarded for a Bad Faith Affidavit
and Preponderance of Evidence.
The City management failed to discipline insubordinate disrespectful employees and
took away my privilege to discipline, evaluate, and sign vacation and sick slips, resulting
in disrespect and a handicap of being a women because they wouldn’t make the men

/

\
22

respect me and do their jobs, unsatisfactory job performance by employees, loss
opportunity for promotion, loss opportunities in life, and they caused me a financial
hardship while paying other employees overtime while were supposed to be on reduced
work hours, retaliation, denial of work place access; denial of training; harassment with
write ups to try to get; me fired which forced me
to retire early, and a hostile work environment with false police reports being submitted,
denial of job change due to jobs not being posted; denial of not being able to touch the
equipment and buy products I liked and needed, and they took away the Pretreatment
Account. I was denied the privilege to study on the job like other employees, and they
denied me the privilege to cash in slick leave or vacation for pay because they didn t want
to change it for everybody. I wanted them to help me under the Employee Assistance
Program: The City could afford to let me cash in time they had money in investments.
They reduce my pay by 20% or 800 dollars a month while they paid other employees
overtime causing me a financial hardship (I was single
with dependents). They did not have to cut our hours because our wages did not come out
of the general fund; they were taken out of the water and sewer fund and those accounts
had plenty of money. Marc Morgan, the Plant Manager, tried to intimidate me about
speaking out on the negligence of repairing lift station pumps, flooding the City, and water
in basements, and sending raw sewage to the creek from a leaking EQ basin; they denied
me the opportunity to resubmit my Class IV Wastewater Thesis to include missing data the
Ohio Environmental Protection Agency wanted included so that I could obtain my Class
IV Wastewater License, and they denied that I was second in command, inflicted

'
/*
23

intentional discrimination, mental stress, humiliation, anguish, suffering and pain to me
(Plaintiff Curry) and my family. Attorney fees and damages may be granted under Title
VII of the Civil Rights Act of 1964.
The City of Mansfield Retaliated against me by not allowing me to resubmit my Class
IV Thesis Application. They would not say I was in charge. The Ex City engineer, James
Lichtenwalter, told them I was in charge, and I had signed sick and absent reports with my
name on them for the Supervisors Signature. As a class IV operator I could make up to
75,000 dollars per year. Upper Management allowed and approved of a hostile work
environment by not controlling the Plant Manager in three incidents in which he physically
pushed me on two occasions.
I appealed the two cases to the United States Supreme Court and they sent back my
cases and rehearing which was submitted on time and said my cases was closed.

Officers / employees of the United States Court failed to perform their duty to enter a
Judgement of Default Judgment; when the City failed to plead; and consolidate cases and
award plaintiff Curry Summary Judgement for the City of Mansfield Submitting a Bad
Faith Affidavit.

The original writ were filed in August I sent in ten copies of the writ under rule 33.2
Paragraph 2.1 had until October 30, 2018 to pay for both fees in the amount of 600.00
dollars. I had filed for Informa Pauperis but my Pauperis Status was denied although I was
indigent and did not have the court fees. I took out a pay day loan. I sent the check in on

\
\
\

24

October 24, 2018 it was received at the court by J. Cross on October 25, 2018. On
December 3, 2018, Jeffrey Adkins sent back the money for the court fees and on
December 13,2018 I got a letter that said my case was closed and that my leave to proceed
informa pauper was denied. I called the court house they would not let me talk to anyone
they said I had to write the Judges.
Once I got the Writ back I read that I could submit a rehearing within 25 days after entry
of the judgement. The rehearing was received by the court on December 28, 2018, By Mr.
Kourous with ups tracking. The Clerk stamped it as January 2, 2019, and sent it back to
me and said the cases are considered closed in this court and no further consideration by
this court is possible.
I submitted the rehearing on December 26, 2018 in booklet format on 8.5 x 11 paper
reduced to 6 1/8 x 9 1/4 with 40 copies and included the 400 dollars fee. There was two
checks for 200 dollars each; check number 127 & 128.1 also included a copy of the
original writ from the cases reduced to 6 1/8 X 9 1/4 with a Certificate of Counsel in the
back. Mr. Adkins returned my fees again and said the case was closed. They would not let
me talk to anyone and said I had to write the Justices.
I made all corrections and submitted the court fees on time and did not get a fair view of
my case by the justices and the right to redress under the law. The rehearing was delivered
back my house on January 5, 2019. I wrote to the Judges and did not get a reply. They
wouldn’t talk to me on the phone either so I was trying to figure out what to do. I read the
court rules and saw that I could file Law Suit against the President and Congress to try to
have a court decision overturned when a government employee fails to do his job.

/•
/
/
25

I filed a Law suit in the United States District Court for the Northern District of Ohio
Against the United States President and Congress on December 27, 2019, to get them to
over turn the decision under 28 U.S.C 1361 Action to compel an officer of the United
States to perform his duty (mandamus).: Ohio Revised Code 2307.382 Ohio Long arm
Statute (tort injuries); 28 USC 1331 and 1343.
I filed for Informa Pauperis Status because I was indigent. The court denied my
Informa Pauperis Status and I was not aware of the denial. Upon calling the court house on
May 20,2020, the Clerk told me my Informa Pauperis status had been denied. I told the
clerk I was hired by a company and had saved the money and I would submit the fee. I
asked him if I sent the money to the court house would the clerks submit my complaint to
the defendants: he said they should. I submitted the fee, and they would not serve my
complaint on the defendants at the United States District Court of the Northern District
Court of Ohio.
I filed the complaints and file for Informa Pauperis status. A copy of the complaint
was left at the court for the Clerk to serve each defendant. When they denied my Informa
Pauperis Status I read the rules and it said I had to serve them or provide postage and ask
the court to have the Marshalls serve them. I purchased envelopes and postage of over
150.00 dollars and took it to the court so they could serve the defendants. When I got to
the court house they would not let me go to the clerks office due to Covid 19. The
Security Guards told me I had to mail them to the court. I mailed the postage paid
envelopes to the court and they sent them back to me. I left 9 copies of the complaint at
the court house for the defendants. The clerk would not send out the complaint or return

\
\

26

the complaints to me so that I could send them out. I did not have money to recopy the
nine complaints.
I had not heard anything from the court so on May 20,20201 called to see what
was going on with the case. The clerk told me my Informa Pauperis Status was denied and
they closed my case on 4-22-20. I had not received any information, I told the Clerk I was
hired by a copy and had saved almost all of the money so I had the court fee and would
send it in. I had saved the money anticipating paying the court fee, if they denied my
Informa Pauperis Status. I asked him if I sent the court fee to the court house will they
serve the complaint on the defendants. He said they should. They would not send the
complaint to the defendants
I appealed to the United States Court of Appeals for the Sixth Circuit because I had
paid the court fee and the clerk would not serve my complaint on the defendants.. I did not
have the Money to pay the fee so I filed for Informa Pauperis Status. They denied my
Informa Pauperis Status and gave me an extension of 14 days to pay the fee. I did not have
the money to pay the fee and they said if I did not pay the fee by January 19,2021, the
appeal will be dismissed for want of prosecution and that no further extension to time to
pay the fee will be granted (Letter December 29,2020). I paid the fee to the Northern
District Court they should have sent my complaint out.
REASON FOR GRANTING THE PETITION
The Petition should be granted because the court erred in not entering Default Judgement
when the City failed to Plead in case No. 18-0211 ( 2017 CA 0079) and Summary
Judgement when the City submitted a bad Faith Affidavit in case no 18-0212 (2017 CA

/
27

0080), the Judgement entry was not according to law, and as a matter of law Plaintiff
Curry is entitled to relief
The City of Mansfield’s Upper Management and Staff discriminated and retaliated
against me under Title VII of Civil Rights Act of 1964 and O.R.C. Chapter 4112, and
answered one of the complaint in defenses under perjury, subornation of peijury, and fraud:
So they didn’t answer the complaint: they submitted an affidavit in bad faith: so I motioned
the court for Default Judgement; and Summary Judgement under Peijury, and subornation
of peijury. The complaint that was answered was answered in bad faith.
“Legal Dictionary | Law.com”
dictionary.law.com/Default.aspx?selected=21
“Bad faith. 1) n. intentional dishonest act by not fulfilling legal or contractual
obligations, misleading another, entering into an agreement without the intention or
means to fulfill it, or violating basic standards of honesty in dealing with others.”
Paragraph G of Summary Judgement Rule 56 states” Affidavits made in bad faith, “the
court shall forthwith order the party employing them to pay to the other party
the amount of the reasonable expenses which the filing of the affidavits caused the
other party to incur, including reasonable attorney's fees, and any offending party, or
attorney may be adjudged guilty of contempt. (I had asked the court to combine the two
cases and was denied). In the other case 18-0211 the City did not answer the complaint.
This complaint included damages, harm, and discrimination caused to me and my family.
The City answered in defenses and did not answer the complaint to evade Peijury, and
Fraud, because the information in the complaint is Valid and I have proof included in the

*
/

>1

4

\

\

28

writs and my reconsideration that the clerk sent back to me. Non of the complaints that I
submitted were false or frivolous and the City has defamed my character with false
accusations.
CONCLUSIONS
The Petition for a Writ of Certiorari should be granted officers of the Court failed to
enter Default and Summary Judgement in error
There are no genuine issue as to any material fact and Plaintiff Curry is entitled to
judgment as a matter of law.
The City did not answer one of the complaints honestly and failed to plead on the other
one.. Paragraph (G) of Summary Judgement Rule 56 states “Affidavits made in bad faith.
Should it appear to the satisfaction of the court at any time that any of the affidavits
presented pursuant to this rule are presented in bad faith or solely for the purpose of
delay, the court shall forthwith order the party employing them to pay to the other
party the amount of the reasonable expenses which the filing of the affidavits caused
the other party to incur, including reasonable attorney’s fees, and any offending party
or attorney may be adjudged guilty of contempt.”
The Clerks erred in not providing Plaintiff Curry Default and Summary Judgement
under Rule 60 (b). The Judgement Entry for cases No. 2018-0212 (2017 CA080) and No.
2018-0211 (2017 CA079) are not according to law, and they are a Constitutional
Challenge,of Default and Summary Judgement and should be reversed.
Therefore, I would like to motion the Court to reverse the lower court decision, and
accept jurisdiction, reinstate, and consolidate cases, and grant plaintiff Curry an order for

♦

f

./
/

29

SUMMARY JUDGEMENT for the Defendants submitting an affidavit in bad faith and
Preponderance of Evidence, and Default Judgement for failing to defend in case No.
2018-0211, and award Plaintiff relief as requested in my Complaint for Jurisdiction
reversal of 31,160,000 Thirty One Million, One Hundred, and Sixty Thousand Dollars:
including treble damages due to the fact that I know my son should be in the NBA; the
emotional distress, humiliation, financial hardship, loss opportunities, and mental
anguish placed on me and my family due to the negligence of the City of Mansfield’s
Management Staff.
Treble damages, in United States law, is a term that indicates that a statute permits
a court to triple the amount of the actual/compensatory damages to be awarded to a
prevailing plaintiff.
If the Court can not reverse the decision: Plaintiff Curry request the complaint be sent
to Defendants (The United States Government and they overturn the decision) and grant
Plaintiff Curry Default and Summary Judgement according to Law under the Ohio Rules
of Civil Procedure Rules 4, Summons Process failure to defend, Rule 55 Default
Judgement, Rule 56 g Affidavits made in Bad Faith, Preponderance of Evidence, and Rule
60 A & B: Clerical Mistakes; inadvertence, mistakes, and fraud.

s

30

Ohio Rule of Civil Procedures Rule 12
RULE 12. Defenses and Objections-When and How Presented~by Pleading or MotionMotion for Judgment on the Pleadings (A) When answer presented. (1) Generally. The
defendant shall serve his answer within twenty-eight days after service of the summons
and complaint upon him;
Ohio Rule of Civil Procedure Rule 4 Summons Process
RULE 4. Process: Summons (A) Summons: issuance. Upon the filing of the complaint
the clerk shall forthwith issue a summons for service upon each defendant listed in
the caption. Upon request of the plaintiff separate or additional summons shall issue at
any time against any defendant. (B) Summons: form; copy of complaint. The summons
shall be signed by the clerk, contain the name and address of the court and the names
and addresses of the parties, be directed to the defendant, state the name and address
of the plaintiffs attorney, if any, otherwise the plaintiffs address, and the times
within which these rules or any statutory provision require the defendant to appear
and defend, and shall notify the defendant that in case of failure to do so, judgment
by default will be rendered against the defendant for the relief demanded in the
complaint. Where there are multiple plaintiffs or multiple defendants, or both, the
summons may contain, in lieu of the names and addresses of all parties, the name of the
first party on each side and the name and address of the party to be served. A copy of the
complaint shall be attached to each summons.

i

t"

31

Ohio Rules of Civil Procedure Rule 56 Bad Faith Affidavits
(G) Affidavits made in bad faith. Should it appear to the satisfaction
of the court at any time that any of the affidavits presented pursuant
to this rule are presented in bad faith or solely for the purpose of
delay, the court shall forthwith order the party employing them to pay
to the other party the amount of the reasonable expenses which the
filing of the affidavits caused the other party to incur, including
reasonable attorney’s fees, and any offending party or attorney may be
adjudged guilty of contempt.
Tittle VII Judgments
(C) Demand for judgment. A judgment by default shall not be different in kind from
or exceed in amount that prayed for in the demand for judgment. Except as to a party
against whom a judgment is entered by default, every final judgment shall grant the relief
to which the party in whose favor it is rendered is entitled, even if the party has not
demanded the relief in the pleadings.

/

32

This case is of such imperative public importance as to justify deviation from normal
appellate practice of Default Judgement, Bad Faith Avadivats/ Fraud, Peijury, Subnoration
of Peijuiy and Preponderance of Evidence.
As a matter of Law Plaintiff Curry was entitled to Default Judgement and the Clerk
Failed to perform his duty: By not granting Plaintiff Curry Judgement Entry of Default
Judgement in case No. 18-5567 and Summary Judgement in case No. 18-5568 for
Defendants submiting Bad Faith Afifadavits and Preponderance of Evidence. Both cases
Writ of Certiorari and Rehearings were submitted in a timely manner.
The Clerk also failed to perform his duty by serving the Complaint filed on Defendants
as I requested upon paying the filing fee after becoming aware my Informa Pauperis Status
was denied. My complaints were at the court house and they did not send them back to me
and there was no access to the court house due to covid 19.

Respectfully submitted

Date:

1

pz 91
(

Carline Curry Pro Se
606 Bowman Street
Mansfield, Ohio 44903
Phone Number 567-274-9130

